No. _______

In The

Supreme Court of the United States
JIAHAO KUANG; DERON COOKE, ON BEHALF OF THEMSELVES AND THOSE SIMILARLY
SITUATED,
Applicants,
V.
UNITED STATES DEPARTMENT OF DEFENSE; MARK ESPER, IN HIS OFFICIAL CAPACITY
AS SECRETARY OF DEFENSE OF THE UNITED STATES DEPARTMENT OF DEFENSE,
Respondents.

APPLICATION DIRECTED TO THE HONORABLE ELENA KAGAN
FOR AN EXTENSION OF TIME WITHIN WHICH TO FILE PETITION FOR WRIT OF
CERTIORARI TO THE UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

MELISSA ARBUS SHERRY
Counsel of Record
LATHAM & WATKINS LLP
555 11th Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2200
melissa.sherry@lw.com
Counsel for Applicants

January 17, 2020

To the Honorable Elena Kagan, Associate Justice of the Supreme Court of the
United States and Circuit Justice for the Ninth Circuit:
Pursuant to 28 U.S.C. § 2101(c) and Supreme Court Rules 13.5, 22, and 30.3,
Applicants Jiahao Kuang and Deron Cooke (“Plaintiffs”) respectfully request a 60day extension of time, to and including March 30, 2020, within which to file a petition
for a writ of certiorari to review the judgment of the United States Court of Appeals
for the Ninth Circuit in Kuang v. U.S. Dep’t of Defense, No. 18-17381. The Ninth
Circuit issued its opinion on July 2, 2019. The Ninth Circuit denied rehearing en
banc on November 1, 2019. (A copy of the Ninth Circuit’s panel decision is appended
hereto as Attachment 1. A copy of the order denying rehearing is appended hereto as
Attachment 2.) Currently, a petition for a writ of certiorari would be due on January
30, 2020. This application has been filed more than 10 days before the date a petition
would be due. See Sup. Ct. R. 13.5. This Court has jurisdiction under 28 U.S.C.
§ 1254(1) to review this case.
1.

This case involves the reviewability of military decisions under what has

become known as the “Mindes doctrine.” See Mindes v. Seamen, 453 F.2d 197 (5th
Cir. 1971). Specifically, this case raises the question whether a bare invocation of
national security concerns can justify a United States Department of Defense (DoD)
policy that facially discriminates against lawful permanent residents (LPRs).
2.

On October 13, 2017, the DoD issued a policy (the “October 13 Policy”)

prohibiting LPRs—but not U.S. nationals—from shipping to basic training until their
background checks were completed. ECF No. 15-2 at ER 77-78. DoD’s prior practice

permitted all enlistees to ship to basic training while certain background checks were
pending. The October 13 Policy’s new prohibition was not targeted or limited to
enlistees with suspicious foreign contacts, particular criminal backgrounds, or known
ties to terrorist groups. Rather, it applied to every LPR who enlisted—as permitted
by statute, see 10 U.S.C. § 504(b)(1)(B)—in the United States military. The October
13 Policy itself does not cite any national security justification. Instead, its purported
goal was to “facilitate process efficiency and the appropriate sharing of information.”
ECF No. 15-2 at ER 77.
3.

Plaintiffs brought suit under the Equal Protection Clause and Due

Process Clause of the Constitution, U.S. Const. amend. XIV, § 1, and Sections 706(1)
and 706(2)(A) of the Administrative Procedure Act (APA), 5 U.S.C. § 706. On July
19, 2018, Plaintiffs sought a preliminary injunction based on their Section 706(2)(A)
APA claim. ECF No. 15-1 at ER 9. DoD and the Secretary of Defense (“Defendants”)
argued that the October 13 Policy arose out of national security concerns and was
therefore non-justiciable under the Mindes doctrine. See id. at ER 15-22. The Mindes
doctrine is a prudential doctrine which some courts have applied to limit judicial
review of military regulations and decisions in certain circumstances. See Mindes,
453 F.2d at 201; Wallace v. Chappel, 661 F.2d 729, 732-33 (9th Cir. 1981), rev’d on
other grounds, 461 U.S. 296 (1983).
The district court granted the preliminary injunction, holding that Plaintiffs’
claim was justiciable and that Plaintiffs had demonstrated a likelihood of success on
the merits and irreparable harm. ECF No. 15-1 at ER 43-55. Defendants filed an

2

emergency motion to stay the district court’s injunction pending appeal, which the
motions panel denied. ECF No. 21.
4.

On July 2, 2019, the Ninth Circuit held that the claim was non-

justiciable under Mindes, vacated the preliminary injunction, and remanded the case
with instructions to dismiss Plaintiffs’ § 706(2)(A) APA claim. See Attachment 1. On
November 1, 2019, the Ninth Circuit denied Plaintiffs’ petition for rehearing en banc.
See Attachment 2.
5.

This Court’s review would be warranted here. The Court has never

considered the viability, let alone the scope, of the so-called Mindes doctrine.
Applying that doctrine here, the Ninth Circuit significantly expanded its reach. In
doing so, the court ignored the important right to be free from arbitrary
discrimination, the irreparable harm suffered by Plaintiffs while they are prevented
from beginning basic training, and the preliminary injunction’s minimal interference
with military functions or discretion.
6.

After the Ninth Circuit panel issued its decision, the DoD implemented

a new policy to screen military recruits for foreign preference, the Expedited
Screening Protocol (ESP). See ECF No. 46. Unlike the October 13 Policy, the ESP
uses a recruit’s citizenship as only one of many “potential risk indicators.” Id. at 1.
The ESP also considers factors such as residential history, education, family
information, and foreign contacts. The ESP does precisely what the October 13 Policy
did not do: it grounds the military’s assessment of national security risk in a holistic
analysis and does not discriminate against LPRs on a class-wide basis.

3

7.

The ESP, however, is provisional. By its own terms, it may be revoked

following a review period that ends on January 30, 2020—six months after its July
31, 2019 enactment. During this six-month period, the October 13 Policy is held “in
abeyance.” Id. at 1-2. After review, the October 13 Policy may be “terminated, held
in abeyance for an additional period, or reinstated.” Id. at 2.
8.

The petition in this case is currently due on January 30, 2020. This is

the same day by which the DoD must decide whether to terminate, continue to hold
in abeyance, or reinstate the October 13 Policy.
9.

Plaintiffs do not intend to seek further review in this Court if

Defendants terminate the October 13 Policy. The additional time sought in this
application is necessary to allow Plaintiffs to review the DoD’s decision about the ESP
and the October 13 Policy. Such an extension would avoid needless litigation in the
event that DoD makes the ESP permanent or terminates the October 13 Policy. It
would further prevent prejudice to Plaintiffs if DoD rescinds the ESP and reinstates
the October 13 Policy on the same date that Plaintiffs’ petition to this Court would
otherwise be due.
10.

The extension requested would not work any meaningful prejudice on

any party.
11.

For these reasons, Plaintiffs respectfully request that the time for filing

a petition for a writ of certiorari in this case be extended to and including March 30,
2020.

4

Dated: January 17, 2020

Respectfully submitted,

Counsel of Record

LATHAM & WATKINS LLP

555 11th Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2207
melissa.sherry@lw.com
Counsel for Applicants

ATTACHMENT 1

Case: 18-17381, 07/02/2019, ID: 11351793, DktEntry: 42-1, Page 1 of 5

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

FILED
JUL 2 2019
MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
JIAHAO KUANG; DERON COOKE, on
behalf of themselves and those similarly
situated,

No.

U.S. COURT OF APPEALS

18-17381

D.C. No. 3:18-cv-03698-JST

Plaintiffs-Appellees,
MEMORANDUM*
v.
UNITED STATES DEPARTMENT OF
DEFENSE; JAMES MATTIS, in his official
capacity as Secretary of Defense of the
United States Department of Defense,
Defendants-Appellants.
Appeal from the United States District Court
for the Northern District of California
Jon S. Tigar, District Judge, Presiding
Argued and Submitted June 14, 2019
San Francisco, California
Before: GOULD and IKUTA, Circuit Judges, and PEARSON,** District Judge.

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The Honorable Benita Y. Pearson, United States District Judge for the
Northern District of Ohio, sitting by designation.

Case: 18-17381, 07/02/2019, ID: 11351793, DktEntry: 42-1, Page 2 of 5

Plaintiffs are foreign nationals and lawful permanent residents (“LPRs”) of
the United States. Both have enlisted in the United States armed forces, but at the
time of filing, neither had yet shipped out, or “accessed,” to active duty.
Military recruits are subject to background screening on enlistment. See 32
C.F.R. § 66.1. The background screening is designed to identify and explore
possible risks to national security and confirm that each recruit is eligible to hold a
military position. Citizens and LPRs are subject to the same background screening
rigors.
Until recently, both citizens and LPRs generally were eligible to begin
active-duty service before their background screenings were completed as long as
they had satisfied certain other screening requirements. On October 13, 2017, the
Under Secretary of Defense for Personnel and Readiness issued a memorandum to
military branches (the “October 13 Memo”) instructing that LPR recruits should
not be accessed prior to completion of a satisfactory background screening and
favorable recommendation. The October 13 Memo did not affect the accession
timeline for citizens.
Plaintiffs argue that the Department of Defense’s (“DOD”) change in
practice was arbitrary and capricious and must therefore be set aside pursuant to
the Administrative Procedure Act (“APA”), 5 U.S.C. § 706(2)(A). On Plaintiffs’
motion, the district court issued a preliminary injunction preventing DOD from

2

Case: 18-17381, 07/02/2019, ID: 11351793, DktEntry: 42-1, Page 3 of 5

implementing the October 13 Memo, thereby requiring that citizens and LPRs be
accessed according to the same timetable. DOD appeals from the injunction order.
Internal military regulations ordinarily are not amenable to judicial review
without some preliminary scrutiny. Mindes v. Seaman, 453 F.2d 197 (5th Cir.
1971) (articulating a four-factor test for reviewability).1 To assess whether a claim
against the military is reviewable (assuming certain threshold requirements are
met, as they are in this case), we inquire into (1) the nature and strength of the
plaintiffs’ claim, (2) the potential injury to the plaintiffs if review is refused, (3) the
extent to which review would interfere with military functions, and (4) the extent
to which military discretion or expertise is involved. Khalsa v. Weinberger, 779
F.2d 1393, 1398 (9th Cir. 1985); Wallace v. Chappell, 661 F.2d 729, 732–33 (9th
Cir. 1981).
“[C]onstitutional claims give more weight to an argument for reviewability
[than statutory claims].” Khalsa, 779 F.2d at 1401 (emphasis omitted); see
Gonzalez v. Dep’t of Army, 718 F.2d 926, 930 (9th Cir. 1983) (“Constitutional
claims ordinarily carry greater weight than those resting on a statutory or
regulatory base . . . .”) (alteration omitted) (quoting Wallace, 661 F.2d at 733).

1

We adopted the Mindes test as to constitutional claims in Wallace v. Chappell,
661 F.2d 729, 733 (9th Cir. 1981), and as to statutory claims in Khalsa v.
Weinberger, 779 F.2d 1393, 1401 (9th Cir. 1985) (“[T]he Mindes test also applies
to statutory claims against the military.”).
3

Case: 18-17381, 07/02/2019, ID: 11351793, DktEntry: 42-1, Page 4 of 5

Although Plaintiffs raise constitutional claims in their complaint, they relied on
their APA claim2 to support the motion for preliminary injunction. Plaintiffs point
to no prior case in which an APA-based challenge to an internal military policy
survived Mindes scrutiny.
The district court concluded that Plaintiffs’ arbitrary-and-capricious claim
was strong on the merits because DOD had “simply withheld all of the relevant
facts.” The administrative record, however, reveals at least two factual
underpinnings for DOD’s decision to adjust the accession timeline for LPR
recruits.3 First, preexisting guidelines published by the Office of the Director of
National Intelligence (“DNI”) instruct national-security adjudicators to consider
recruits’ “allegiance to the United States,” “foreign influence,” and “foreign
preference” when conducting background screenings, all of which have selfevident implications for LPRs. Second, a 2017 DOD study identified several
difficulties in screening LPR recruits that did not occur when screening citizens.
DOD reasonably concluded that delaying the accession of LPR recruits would
mitigate the risks identified by the DNI Guidelines and the 2017 DOD study.

2

In addition to their claim that the October 13 Memo was arbitrary and capricious,
Plaintiffs also argued that the policy change was “not in accordance with law,” see
5 U.S.C. § 706(2)(A). The district court dismissed the latter claim.
3

The record also included internal DOD memos regarding the potential security
risk of other noncitizen recruits.
4

Case: 18-17381, 07/02/2019, ID: 11351793, DktEntry: 42-1, Page 5 of 5

As for the second Mindes factor, we identify no grave injury that will result
if the district court refuses to review Plaintiffs’ arbitrary-and-capricious claim.
Plaintiffs were not entitled to quick or immediate accession on enlistment, and they
were expressly advised, both by their contracts and by the delayed-entry statute
itself, that accession might not take place for up to two years after enlistment. The
record also does not support Plaintiffs’ contention that they suffer stigma from
delayed accession. Cf. Wenger v. Monroe, 282 F.3d 1068, 1075 (9th Cir. 2002).
Assessing the third and fourth Mindes factors, we observe that military
decisions about national security and personnel are inherently sensitive and
generally reserved to military discretion, subject to the control of the political
branches. See Dep’t of Navy v. Egan, 484 U.S. 518, 527 (1988); Gilligan v.
Morgan, 413 U.S. 1, 10 (1973); Gonzalez, 718 F.2d at 930. Of course, we are not
compelled to be credulous. Assertions by the military that are “palpably untrue or
highly questionable” merit little deference. Khalsa, 779 F.2d at 1400 n.4. But
DOD’s claim to expertise in this case is not seriously in doubt, and its assertions
about national-security risks are not far-fetched.
We conclude that judicial review is foreclosed. We therefore VACATE the
preliminary injunction and REMAND the case with instructions to dismiss the 5
U.S.C. § 706(2)(A) claim pursuant to the Mindes doctrine.

5

ATTACHMENT 2

Case: 18-17381, 11/01/2019, ID: 11486806, DktEntry: 57, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
NOV 1 2019
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

JIAHAO KUANG; DERON COOKE, on
behalf of themselves and those similarly
situated,
Petitioner–Appellees,

No.

18-17381

D.C. No.
3:18–cv–03698–JST
Northern District of California,
San Francisco

v.
ORDER
UNITED STATES DEPARTMENT OF
DEFENSE; JAMES MATTIS, in his official
capacity as Secretary of Defense of the
United States Department of Defense
Respondents–Appellants.
Before: GOULD and IKUTA, Circuit Judges, and PEARSON,* District Judge.
The full court has been advised of the Petition for Rehearing En Banc and no
judge of the court has requested a vote on the Petition for Rehearing En Banc.
Fed. R. App. P. 35. Appellee’s Petition for Rehearing En Banc is DENIED.

*

The Honorable Benita Y. Pearson, United States District Judge for the
Northern District of Ohio, sitting by designation.

